i

"to

nx ^
j)

IN THE
SUPREME COURT OF THE UNITED STATES

SEAN P. REILLY
i

Petitioner,
L

(UlPI ffi'F
■-1

; P' piYCM
U M L\ vY:'xj hv-ULui
i I-i

FILED
NOV 0 6 2020

vs.

OFFICE OF THE CLERK
SUPREME COURT. U.S.

MARK INCH,

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Received
Sean P. Reilly DC#N21886
SOUTH BAY CORRECTIONAL & REHABILITATION F.
P.O. BOX 7171
SOUTH BAY, FLORIDA 33493

NOV 1 8 2020

SSIfiHigSE

OVERVIEW
Sean Reilly filed a post-conviction motion in the state court raising several
ineffective assistance of trial counsel claims collaterally challenging his conviction
and sentence. The state court appointed post-conviction counsel and set the matter
for an evidentiary hearing. Appointed post-conviction counsel

abandoned

meritorious ineffective assistance of trial counsel claims at the state court
evidentiary hearing.
After exhausting his available state court remedies, Reilly filed a § 2254
federal habeas petition in the United States District Court. He raised the
abandoned ineffective assistance of trial counsel claims in the federal petition. He
invoked the United States Supreme Court precedent Martinez v. Ryan, 132 S. Ct.
1309 (2012), to excuse the procedural default caused by post-conviction counsel’s
ineffectiveness.
In denying Reilly’s constitutional claims, the District Court adopted the
Magistrate Judge’s recommendation that -Reilly--failed to satisfy Martinez’s
requirements because he could have easily discharged his post-conviction counsel if
he did not agree with counsel’s abandonment of his claims and pursued the claims
by himself in pro se fashion; in other words, he did not have to acquiesce to counsel’s
decision. DE # 35 at 16. In drawing this conclusion, the Magistrate effectively
limited the scope of Martinez, but cited no authority to support such limitation.
Reilly asks the Supreme Court to clarify the holding in Martinez to prevent
lower courts in the federal judicial system from bypassing legitimate ineffective
assistance of trial counsel claims.
QUESTION PRESENTED
1. Does a federal habeas petitioner forfeit his or her opportunity to
invoke Martinez v. Ryan, 132 S. Ct. 1309 (2012), and bring forth an
otherwise unexhausted ineffective assistance of trial counsel
claims in a § 2254 petition, where the Petitioner initially raised
the claim in a state post-conviction motion, but appointed post­
conviction counsel later abandoned the claim over the petitioner’s
express objection?
ii

LIST OF PARTIES
[ ✓ ] All parties appear in the caption of the case on the cover page
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

iii

TABLE OF CONTENTS
OPINION BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

QUESTION PRESENTED: Does a federal habeas petitioner forfeit his or
her opportunity to invoke Martinez v. Ryan, 132 S. Ct. 1309 (2012), and
bring forth an otherwise unexhausted ineffective assistance of trial
counsel claims in a § 2254 petition, where the Petitioner initially raised the
claim in a state post-conviction motion, but appointed post-conviction
counsel later abandoned the claim over the petitioner’s express objection?
CONCLUSION

13

PROOF OF SERVICE

14
INDEX TO APPENDICES

Appendix A

Opinion of the U.S. Court of Appeals for the Eleventh Circuit

Appendix B

Decision of the United States District Court

Appendix C

Magistrate Judge’s Report and Recommendation

Appendix D.. .Rehearing Denial of the U.S. Court of Appeals for the Eleventh Circuit

iv

TABLE OF AUTHORITIES CITED
Cases
Berthiaume v. State, 755 So. 804 (Fla. 2d DCA 2000)

9

Eubanks v. State, 903 So. 2d 1005 (Fla. 2d DCA 2005)

9

Hall v. Thomas, 611 F. 3d 1259, 1290 (11th Cir. 2010)

12

Hicks v. State, 874 So.2d 699 (Fla. 1st DCA 2004)
Hinton v. Alabama, 571 U.S. 263, 134 S. Ct. 1081, 188 L. Ed. 2d 1 (2014)
Lawhorn v. State, 145 So. 2d 987 (Fla. 1st DCA 2014)

9
12
9

Miller-El v. Cockrell, 537 U.S. 322, 123 S. Ct. 1029 (2003)

12

Rose v. McNeil, 634 F. 3d 1224, 1241 (11* Cir. 2011)

12

Shelton v. State, 851 So.2d 912 (Fla. 4th DCA 2003)

v

8

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
[ ✓ ] For cases from federal courts:
The opinion of the United States Court of Appeals appears at
Appendix A to the petition and is
[ ] reported at

.; or

[ * ] has been designated for publication but is not yet reported; or
[ ] is unpublished.
[

] For cases from state court:
The opinion of the United States Court of Appeals appears at
Appendix

to the petition and is

[ ] reported at

; or

[ ] has been designated for publication but is not yet reported; or
[ ] is unpublished.

1

JURISDICTION
[ * ] For cases from federal courts:
The date on which the United States Court of Appeals decided my
case was May 6, 2020. A copy of that decision appears at
Appendix A .
[ ] No petition for rehearing was timely filed in my case.
[ ✓ ] A timely petition for rehearing was denied by the United
States Court of Appeals on the following date: June 9. 2020 and a
copy of the order denying rehearing appears at Appendix D .
[ ✓ ] An extension of time to file the petition for writ of certiorari
was granted to and including _____
(date) on
________________ (date) in Application No.
[ ] For cases from state courts:
The date on which the highest state court decided my case was
____________ . A copy of that decision appears at Appendix__ .
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United
States Court of Appeals on the following date:__________
and
a copy of the order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for writ of certiorari
was granted to and including _____
(date) on
________________ (date) in Application No.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INCLUDED
Sixth Amendment right to effective assistance of counsel.
Amendment to the United States Constitution

6th

28 U.S.C. § 2254 State custody; remedies in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district
court shall entertain an application for a writ of habeas corpus in
behalf of a person in custody pursuant to the judgment of a State
court only on the ground that he is in custody in violation of the
Constitution or laws or treaties of the United States.

3

STATEMENT OF THE CASE
The issue in this case is whether a federal court can deny a § 2254 habeas
petitioner’s Martinez-based claim because the petitioner did not discharge state
post-conviction counsel and fully exhaust the ineffective-assistance-of-trial counsel
claim on his own in state court proceedings. This case requires the Supreme Court
to elucidate the holding in Martinez and prevent federal courts from limiting the
scope of clearly established law.
A.
Sean Reilly filed a § 2254 federal habeas petition in the United States
District Court raising four Martinez-based ineffective-assistance-of-trial-counsel
claims. His state court appointed post-conviction counsel abandoned these four
constitutional claims against Reilly’s wishes.
In the first ground of his § 2254 petition, Reilly argued that his trial counsel
was ineffective, in violation of the Sixth and Fourteenth Amendments to the United
States Constitution, for failing to investigate exculpatory facts and pursue a viable
defense of an un-willful violation at his community control revocation proceeding
which would have proved he is actually innocent of the alleged violation. DE # 22 at
4-5. Because this claim is unexhausted in the state court, Reilly invoked the
Supreme Court’s holding in Martinez v. Ryan, 566 U.S. 1, 132 S. Ct. 1309, 182 L.
Ed. 2d 272 (2012), to excuse the procedural default. Id. at 4-5.
In denying this claim, the District Court adopted the Magistrate Judge’s
recommendation, which was two-fold. First, the Magistrate claimed that Reilly

4

failed to satisfy Martinez’s requirements because he could have easily discharged
his post-conviction counsel if he did not agree with counsel’s abandonment of his
constitutional ineffective assistance of trial counsel claims and pursued the claims
by himself in pro se fashion; in other words, he did not have to acquiesce to counsel’s
decision. DE # 35 at 16. In drawing this conclusion, the Magistrate effectively
limited the scope of Martinez, but cited no authority to support such limitation. Id.
Second, the Magistrate concluded that even if Martinez were activated, the claims
nonetheless fail on the merits. DE # 35 at 16.
Reilly argued on appeal to the United States Circuit Court of Appeals for the
Eleventh Circuit that no competent counsel would have abandoned the claim
concerning trial counsel’s failure to pursue an unwillful violation defense. And this
is especially true where counsel had the hard work done for him: Reilly filed a pro se
rule 3.850 motion raising the ineffective-assistance-of-trial-counsel claim at issue.
Counsel then abandoned the claim over Reilly’s express objection.1 Certainly no
competent counsel would have taken this action.
The Magistrate Judge and the District Court Judge concluded that, under
these facts, Reilly forfeited his opportunity to invoke Martinez so as to excuse the
procedural default of this claim because he acquiesced to post-conviction counsel’s
decision. Reilly argued that this was a plainly erroneous interpretation of Martinez.
As Reilly explained in his objections to the Magistrate’s report and
recommendation, his post-conviction counsel refused to pursue the claims, insisting

1 Correspondence between Reilly and postconviction counsel was attached to Reilly’s objection to the
Magistrate’s report and recommendation.
5

that it did not have merit and that he had no choice but to abandon it. And so Reilly
was left with two options: acquiesce to counsel and allow counsel to abandon the
claim, or represent himself at the evidentiary hearing. Reilly is not an attorney. He
had no hope of prevailing on any of his claims absent the assistance of counsel.
Reilly was therefore compelled to allow counsel to abandon the claims.
Reilly argued that contrary to the Magistrate Judge’s findings, just because
Reilly acquiesced to counsel does not mean he forfeited his opportunity to bring the
abandoned claims to the federal district court under Martinez. It just means that
counsel, under these circumstances, performed objectively unreasonable under
prevailing professional norms, as contemplated by the Supreme Court in Martinez.
The Magistrate Judge and the District Court erred in concluding otherwise.
Reilly’s claim was meritorious and thus “substantial” under Martinez
In addition to concluding that Reilly was precluded from utilizing Martinez to
overcome the procedural default due to his acquiescence to post-conviction counsel’s
abandonment of the claim, the Magistrate Judge and the District Court also
concluded that the claim is not “substantial” within the meaning of Martinez
because it does not have at least some merit. DE # 35 at 16.
The question whether an ineffective assistance of trial counsel claim is
“substantial” under Martinez is not the same as a merits review.
Here, Reilly satisfied more than a mere preliminary Strickland review. This
claim is premised upon trial counsel’s failure to investigate exculpatory facts and
present a viable defense of an unwillfull violation of community control. DE # 22 at
4-5. In support of this claim, Reilly explained that although he was not actually
6

searching for a job when he left his residence on the days in question (which formed
the basis of the alleged violation of condition 15), counsel still could have
demonstrated that the violation was unwillfull under existing Florida law. Id. This
is because once Reilly’s probation officer authorized him to leave his residence, it
could not be said that he violated condition 15 requiring him to stay confined to his
residence, regardless of whether he was actually searching for a job. Id.
Moreover, Reilly asserted that, had post-conviction counsel done a little
research, counsel would have discovered that there are several Florida cases that
support this proposition and prove actual innocence. Reilly cited them not only
when he replied to the State’s response to his federal habeas petition. DE#30. He
cited them in his objections to the Magistrate’s report and recommendation.DE# 43.
Nonetheless, the Magistrate Judge and the District Court completely
disregarded these cases and focused instead on the things Reilly was actually doing
when he was supposed to be looking for a job. Instead of searching for a job, the
Magistrate explained, Reilly was out doing things like “playing basketball at a local
park,” “visiting a friend at the friend’s house and a park,” and “visiting a park and
restaurant,” and “attending a professional baseball game.” DE # 35 at 16. Although
the Magistrate Judge’s position may seem plausible - after all, what was Reilly
doing playing basketball and visiting friends when he was on house arrest — Florida
case law unambiguously holds that a probationer cannot be violated for failing to
remain confined to his or her residence where the probation officer permitted the
probationer to be absent from the residence for a certain period of time. And this is

7

true despite what the probationer may or may not have been doing while they were
absent. While this may seem a bit outlandish, it is completely consistent with
Florida case law.
Reilly argued that Florida’s Fourth District Court of Appeal in Shelton v.
State, 851 So.2d 912 (Fla. 4th DCA 2003) held that “[i]t is well established that a
defendant’s probation/community control cannot be revoked for conduct that is not
prohibited or required by the order of probation/community control.” Id. At the
revocation hearing, Shelton’s employer testified that Shelton was not at work on the
relevant dates. Id. The Fourth District explained that “the condition that Shelton
was found to have violated simply does not require him to be at his place of
employment; rather, it requires him to be at him with some limited exceptions.” Id.
The Fourth District reversed the order of revocation because the condition required
that Shelton “remain confined to [his] except for one half hour before and after [his]
approved employment, community service work, or any other activities approved by
[his] officer.” Id. at 913.
Consequently, Reilly argued that just like Shelton, the condition that Reilly
was found to have violated, “simply does not require him to be at his place of
employment; rather, it requires him to be at home with some limited exceptions.”
Id. One of those exceptions was that he could leave his residence when granted
permission to do so. At the revocation hearing, Probation Officer Guelsy Herrera
admitted that she gave Reilly permission to leave his residence to search for
employment on certain days and for certain periods of time. (T. 238) He asserted

8

that during the periods of time that Reilly was not at his residence, he was
authorized to be absent. Thus, had trial counsel presented an unwillful violation
defense as in Shelton, Reilly could not have been found guilty of violating the
condition that required him to stay confined to his residence with limited
exceptions. If the State alleged the wrong violation based on the facts of the case,
then that was the State’s problem, no Reilly’s.
There are several other cases in which trial counsel could have used to
support Reilly’s contention of an unwillful violation of his community control. See,
e.g., Eubanks v. State, 903 So. 2d 1005 (Fla. 2d DCA 2005) (Defendant’s failure to
remain confined to her own residence on four occasions did not warrant revocation
of community control where community control officer authorized defendant to be
absent from her residence to perform community control); Berthiaume v. State, 755
So. 804 (Fla. 2d DCA 2000) (same); Lawhorn v. State, 145 So. 2d 987 (Fla. 1st DCA
2014) (same); Hicks v. State, 874 So.2d 699 (Fla. 1st DCA 2004) (same).
Therefore, the ineffective-assistance-of-trial-counsel claim had merit as if the
unwillful violation defense would have been pursued by counsel he would have
proved that Reilly could not have had his probation revoked when he was given
permission from the probation officer to leave his home.

9

QUESTION TO BE ANSWERED
The Supreme Court should answer the following question: Does a federal
habeas petitioner forfeit his or her opportunity to invoke Martinez and bring forth
an otherwise unexhausted ineffective-assistance-of-trial-counsel claim in a § 2254
petition, where the petitioner initially raised the claim in a state post-conviction
motion, but appointed post-conviction counsel later abandoned the claim over the
petitioner’s express objection. As it stands, there is a dearth of federal case law
addressing this factual scenario.

10

REASONS FOR GRANTING THE PETITION
Petitioner asks the Supreme Court to grant this petition to clarify the holding
in Martinez. This case would prevent the federal district courts from limiting the
scope of Martinez in future § 2254 federal habeas proceedings.
In Martinez v. Ryan, the Supreme Court held that post-conviction counsel’s
failure to raise an ineffective-assistance-of-trial-counsel (IATC) claim at an initial
review collateral proceeding could serve as the necessary “cause” to overcome the
procedural default of that type of claim when the state prohibits it from being raised
during the direct review process. Id., 566 U.S. at 11-12. A federal habeas petitioner
seeking to utilize Martinez must demonstrate that post-conviction counsel was
ineffective under the standards of Strickland v. Washington, 466 U.S. 668, 104 S.
Ct. 2052, 80 L. Ed. 2d 674 (1984). Id., 182 L. Ed.''2d"at 286. Pursuant to Strickland,
a petitioner must show both that his attorney’s performance fell below an objective
standard of reasonableness and that the performance prejudiced the defense.
Strickland, 466 U.S. at 688.
The proper measure of attorney performance is “simply reasonableness under
prevailing professional norms” considering all the circumstances. Hinton v.
Alabama, 571 U.S. 263, 134 S. Ct. 1081, 188 L. Ed. 2d 1 (2014) (citing Strickland,
466 U.S. 687 (internal quotations and citations omitted)). To be objectively
unreasonable, the performance must be such that no competent counsel would have
taken the action in question. See Rose v. McNeil, 634 F. 3d 1224, 1241 (11th Cir.
2011); see also Hall v. Thomas, 611 F. 3d 1259, 1290 (11th Cir. 2010).

11

To overcome the default, a prisoner must also demonstrate that the
underlying ineffective-assistance-of-trial-counsel claim is a substantial one, which is
to say that the prisoner must demonstrate that the claim has some merit. Miller-El
v. Cockrell, 537 U.S. 322, 123 S. Ct. 1029 (2003) (describing standards for certificate
of appealability to issue).
The Supreme Court did not intend for Martinez to restrict § 2254 federal
habeas petitioners from raising procedurally defaulted ineffective-assistance-oftrial-counsel claims because they could not compel their post-conviction counsel to
argue the claim in the state post-conviction proceeding. The district court’s
interpretation runs awry of the cause-and-prejudice standard. The cause for not
fully exhausting this claim in the state court was that post-conviction counsel
abandoned it and the petitioner was prejudiced by counsel’s decision because the
ineffective-assistance-of-trial-counsel claim had some merit.
Here, no competent counsel would have abandoned the claim concerning
counsel’s failure to pursue an unwillful violation defense. And this is especially true
where counsel had the hard work done for him: Reilly filed a pro se rule 3.850 post­
conviction motion raising the very ineffective-assistance-of-trial-counsel claim at
issue. Appointed post-conviction counsel then abandoned the claim over Reilly’s
express objection (letters between Reilly and counsel demonstrated Reilly’s insistence
on raising the claim). Certainly no competent counsel would have taken this action.
Like many similar § 2254 federal habeas petitioners, one is stuck between a
rock and a hard place in having to choose between allowing post-conviction counsel,

12

who has more experience than a pro se prisoner, to go forward with their strategy or
fire post-conviction counsel and represent themselves at a state post-conviction
evidentiary hearing to ensure that the claim does not get abandoned by ai i qualified
uj

attorney.
This Court should decide whether a § 2254 federal habeas petitioner actually
forfeits their opportunity to bring an abandoned claim in United States District
Court under Martinez. It just means that counsel, under these circumstances,
performed objectively unreasonable under prevailing professional norms, as
contemplated by the Supreme Court in Martinez.
There is a dearth of case law on the issue. Thus, it is important for this Court
to clarify the federal court’s misinterpretation of Martinez v. Ryan so that it is not
misapplied in future cases by federal courts across the country.
CONCLUSION
Petitioner respectfully prays that this Court grant him a writ of certiorari to
clarify this issue.
Respectfully Submitted,
Sean P. Reilly N21^8o
South Bay Correctional Facility
P.O. Box 7171
South Bay, FL 33493

13

Nl o,
XhJ THE SUPREME COURT OF THE UNITED STATES

Sean p. Reilly
Pe+m'onev]
V.

MARK xmcH,
RespiW^irf,
PETITION FOKUJRITof CERTiDMWTa
\m Uhl \T£t> states coxakyofa^abals fogrue

A PPEhlPly To Peririo/J F°K WRfTdfCSKflOHARl

Sean P PeUly J>c#AI2/&%
5oAk 'Say Coy'rec'b'onaj nnifi.lki\Pi)i'-bSt>r\ fadPpy

Po, Bo*l\n)
SourM

RL

